HHS/OIG-Audit--"Follow-Up Review of the Food and Drug Administration's Generic Drug Approval Process, (A-15-91-00025)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Review of the Food and Drug Administration's Generic Drug
Approval Process," (A-15-91-00025)
September 16, 1992
Complete Text of Report is available in PDF format
(444 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Food and Drug Administration (FDA)
has not taken sufficient action to correct a material weakness in FDA's generic
drug approval process. The FDA needs to: (1) modify the method by which generic
drug applications are assigned to reviewers to remove any opportunity for showing
partiality or favoritism; (2) revise its "first-in, first-reviewed"
policy for generic drugs because the current policy may allow for the unequal
treatment of drug firms' applications; (3) develop comprehensive guidelines
to assure that generic drug applications are reviewed in a uniform and consistent
manner; and (4) establish a quality control review system outside the Office
of Generic Drugs to ensure the propriety of individual generic drug application
reviews and the integrity of the review process.